(

-2<H
No.

Supreme Court, U.S.
FILED

JUL -1 2019

In The

Supreme Court of the United States

OFFICE OF THE CLERK

ANNE BLOCK,
Petitioner,
v.
WSBA, et al.,
Respondents.

On Petition For Writ Of Certiorari
To The United States District Court Of Appeals For The Ninth Circuit

PETITION FOR WRIT OF CERTIORARI
ANNE BLOCK
115 West Main St #204
Monroe, WA 98272
(206) 326-9933

RECEIVED
SEP - 4 2019

>
i

QUESTIONS PRESENTED
A. Did the trial court err when the district court judge and the reviewing judge
refused to disqualify themselves because of their membership in the defendant, the
Washington State Bar Association?
B. Could the appellant’s first amendment claim survive a motion on the
pleadings if an unbiased judge had been assigned?
C. Did the defendants actions of retaliating against Block for resigning from
the WSBA violate her constitutional right to disassociate as recently announced in
Janus v. American Federation ofState, County, and Municipal Employees, Council
31, No. 16-1466, 585 U.S.__ (2018)?

PARTIES TO THE PROCEEDING
The parties to the proceeding in the United States Court of Appeals for the
Ninth Circuit were:
Anne Block v. WASHINGTON STATE BAR ASSOCIATION; SARAH
ANDEEN, individually, and in her capacity as defendant Washington State Bar
Association; KEVIN BANK, individually and in his capacity as defendant
Washington State Bar Association; KATHRYN BERGER, individually and in her
capacity as defendant Washington State Bar Association; KEITH MASON
BLACK, individually and in his capacity as defendant Washington State Bar
Association; STEPHANIE BLOOMFIELD, individually and in her capacity as
defendant Washington State Bar Association; MICHELE NINA CARNEY,
individually and in her capacity as defendant Washington State Bar Association! S.
NIA RENEI COTTRELL, individually and in her capacity as defendant Washington
State Bar Association! WILLIAM EARL DAVIS, individually and in his capacity as
defendant Washington State
Bar Association!
STEPHANIA
CAMP
DENTON, individually and in her capacity as defendant Washington State Bar
Association! LINDA EIDE, individually and in her capacity as an employee of
defendant Washington State Bar Association! DOUG ENDE, individually and in his
capacity as defendant Washington State Bar Association! MARCIA LYNN
DAMEROW FISCHER, individually and in her capacity as defendant Washington
State Bar Association; G. GEOFFREY GIBBS, individually, and in his official
capacity as an employee of defendant Snohomish County and an employee of
Washington State Bar Association! WILLIAM MCGILLIN, individually and in his
capacity as defendant Washington State Bar Association!-MICHAEL JON MYERS,
individually and in his capacity as defendant Washington State Bar
Association! JOSEPH NAPPI JR, individually and in his capacity as defendant
Washington State Bar Association! LIN O’DELL, individually and in her capacity
as defendant Washington State Bar Association and in her marital community with
her husband and/or domestic partner of defendant Mark Plivilech! MARK
PLIVILECH, in his individual capacity and in his marital community with wife
and/or'domestic partner defendant LIN O’Dell! ALLISON SATO, individually and in
her capacity as defendant Washington State Bar Association! RONALD SCHAPS,
individually and in his capacity as defendant Washington State Bar
Association; JULIE SHANKLAND, individually and in her capacity as defendant
Washington State Bar Association! MARC SILVERMAN, individually and in his
capacity as defendant Washington State Bar Association! TODD R. STARTZEL,
individually and in his capacity as defendant Washington State Bar

Association; JOHN DOE, individually and in his capacity as defendant Washington
State Bar Association! CITY OF DUVALL, a Washington State City and Municipal
Corporation; LORI BATIOT, individually, and in her official capacity as an employee
of defendant City of Duvall; JOE BEAVERS, individually; LINDA LOEN,
individually, and in her capacity as defendant City of Gold Bar Mayor and Public
Records Officer; CRYSTAL HILL PENNINGTON (nee BERG), individually, and in
her marital community with defendant John Pennington, her husband; KENYON
DISEND, A WASHINGTON PLLC business in Washington! MICHAEL
KENYON, individually, and in his official capacity as an employee and as a
shareholder of defendant Kenyon Disend; MARGARET KING, individually, and in
her official capacity as an employee of defendant Snohomish County and for
defendant Kenyon Disend; ANN MARIE SOTO, individually, and in her official
capacity as an employee for defendant Kenyon Disend; SANDRA SULLIVAN ( nee,
MEADOWCRAFT), individually, and in her official capacity as an employee for
defendant Kenyon Disend; KING COUNTY, a Washington State County and
Municipal Corporation! CARY COBLANTZ, individually, and in his official capacity
as an employee of defendant King County! PORT OF SEATTLE, a Washington State
Port and Municipal Corporation! SEAN GIBLEO, individually, and in her official
capacity as an employee of defendant Port of Seattle! KALI MATUSKA,
individually, and in her official capacity as an employee of defendant Port of Seattle.'
JULIE TANGA, individually, and in her official capacity as an employee of defendant
Port of Seattle! JAMES TUTTLE, individually, and in her official capacity as an
employee of defendant Port of Seattle,' SNOHOMISH COUNTY, a Washington
County and Municipal Corporation! SARA DIVITTORIO, individually, and in her
official capacity as an employee of defendant Snohomish County; SETH FINE,
individually, and in his official capacity as an employee of defendant Snohomish
County and an employee of Washington State Bar Association! BRIAN LEWIS,
individually, and in his official capacity as an employee and public records officer of
defendant Snohomish County! JOHN LOVICK, individually, and in his official
capacity as an employee of defendant Snohomish County! JOHN
PENNINGTON, individually, and in his marital community with defendant Crystal
Hill Pennington, his wife, and in his official capacity as Director of Snohomish
County Department of Emergency Management for defendant Snohomish
County! SEAN REAY, individually, and in his official capacity as an employee of
defendant Snohomish County! MARK ROE, individually, and in his official capacity
as an employee of defendant Snohomish County! SKY VALLEY MEDIA GROUP,
LLC dba SKY VALLEY CHRONICLE, a Limited Liability Company in
Washington; RONALD FEJFAR, aka RON FAVOR aka RON FABOUR aka CHET

1

ROGERS individually, and in his official capacity as an agent for defendant Sky
Valley Media Group, LLC., Defendants.

/

TABLE OF CONTENTS
Questions Presented......................................
1
Parties to the Proceedings.............................
ii
m
Table of Contents....................... ..............
Table of Authorities......................................
iv
Petition for Writ of Certiorari............... ........
1
I. Opinions Below.................................
1
II Jurisdiction........................................
1
1
HI Federal Statute at Issue 42 USC 1983
IV. Introduction............... ....................
2
V. Facts Relevant to the Petition...................
4
(A) Procedural Facts..............................
4
(B) Substantive Facts............................
5
VI. Argument...............................................
19
A. All three judges associated in this case have preexisting conflicts of interest which require
their
disqualification..................................................... 19
B. The plaintiff has properly pled first amendment
retaliation claims..................................................
21
C. The Bar’s actions of retaliating for asserting
her right to disassociate from the Bar violated
her constitutional right to disassociate from
organizations she disagrees with,
30
Conclusion..................................... .........
31

TABLE OF AUTHORITIES

Cases

Allen v. Iranon, 283 F.3d 1070, 1074 (9th Cir. 2002)).32
Arizona Students’Ass’n v. Arizona Bd. ofRegents, 824 F.3d 858, 867 (9th Cir. 2016)
.............................................................................. passim
Arrington v. Dickerson, 915 F. Supp. 1516........
21
Baird v. State Bar ofAriz., 401 U.S. 1, 7 (1971)
30
Bd. of Cty. Comm'rs v. Umbehr, 518 U.S. 668, 674 (1996) 30
Blair v. Bethel Sch. Dist., 608 F.3d 540, 543 (9th Cir. 2010)
23
Blount v. Rizzi, 400 U.S. 410, 417-18 (1971)
30
24
Buckley v. Valeo, 424 U.S. 1, 14 (1976).........
In Re Rufallo, 390 US 544...............................
33
Janus v. American Federation ofState, County, and Municipal Employees, Council
31, No. 16-1466, 585 U.S.;__ (2018)
i, 2
Keller v. State Bar of California 496 U.S. 1, 4 (1990),34
Knox v. Service Emps. Int’l Union, Local 1000 (“SEIU”), 132 S. Ct. 2277 (2012)
............................................................................... 33, 34
Lathrop v. Donohue, 367 U.S. 820, 843 (1961)34, 35, 36
Marshall v. WSBA, WWDC Case # 11-5319.
6, 19
McIntyre v. Ohio Elections Comm'n, 514 U.S. 334, 347, 351 (1995)
24
Mendocino Envt'l Ctr. v. Mendocino County, 192 F.3d 1283, 1300 (9th Cir. 1999)
23

OBrien, 2016 WL 1382240, at *11
22,31
Pinard v. Clatskanie Sch. Dist. 6J, 467 F.3d 755, 770 (9th Cir. 2006)
23,31
Pope v. WSBA, WWDC Case # 11-05970
6, 19
Riss v. Angel 934 P.2d 669, 131 Wash.2d 612 (Wash. 04/10/1997) 19
Roth v. United States, 354 U.S. 476, 484 (1957)
24
Scannell v. Washington State Bar Association, et al, WWDC Case #2:i2-cv00683
................................................................................. 6,19
The Presbyterian Church v. United States, 870 F.2d 518, 522-23 (9th Cir. 1989)
30

Ulrich v. City & County ofSan Francisco, 308 F.3d 968, 979 (9th Cir. 2002)
Vill. ofSchaumburg v. Citizens for a Better Env't, 444 U.S. 620, 633 (1980)
Statutes

28 USC § 2101(c)
42 USC 1983.........
RCW 49.60..........
RCW 5.68.010....

1
1
2

2, 3,9

Rules

ELC 10.12(b)......
ELC 11.2.............

12
17

31
30

Treatises
Ralph H. Brock, “An Aliquot Portion of Their Dues:” A Survey of Unified Bar
Compliance with Hudson and Keller, 1 TEX. TECH J. TEX. ADMIN. L. 23, 24 n.l
(2000)
31

PETITION FOR A WRIT OF CERTIORARI
I. OPINIONS BELOW
The unreported memorandum of the Ninth
Circuit Court of Appeals
The unreported memorandum decision of the
United States District Court of the Western District
of Washington
II. JURISDICTION
The Ninth Circuit Court of Appeals filed its
memorandum on February 11, 2019 and entered an
order
denying
Petitioner’s
motion
for
rehearing/rehearing en banc on April 2, 2019. The
jurisdiction of this Court is invoked under 28 USC §
2101(c)
III. FEDERAL STATUTE AT ISSUE: 42 USC 1983
For the reasons stated hereinbelow, the district
court’s order dismissing Anne Block’s claims on
defendants’ motion for motions on the pleadings
should be reversed.

IV. INTRODUCTION
If Petitioner Anne Block (Block) was Jim
Acosta from CNN, and the defendants were operating
under the umbrella of the White House instead of the
Washington Bar Association, we would not be here
today. The issues are similar. In this case, Defendant,
Washington State Bar Association, sent news
reporter Block, a subpoena for her news reporter files.
Block responded by objecting, claiming that RCW
5.68.010 (media shield), RCW 49.60, and the First
Amendment required the bar association to first go to
court before the subpoena could be issued. Defendant
WSBA ignored Block’s objections herein and opened
an investigation over whether her actions constituted
“obstruction”. When Block resigned from the bar
association in protest, the Washington State Bar
charged her with obstruction and recommended
disbarment in direct violation of principles recently
announced in the recent case of Janus v. American
Federation of State, County, and Municipal
Employees, Council 31, No. 16-1466, 585 U.S. ___
(2018)),
Unlike Jim Acosta from CNN, Block does not
have the financial resources of a powerful
international news corporation like CNN at her
disposal. Block came to our courts with one simple
request- Protect her rights as a news reporter and
uphold the First Amendment to the United States

Constitution and RCW 5.68.010 Media Shield laws of
Washington State.
In this regard, both the district court and a
three judge panel in the Ninth Circuit have failed
miserably in their duty to uphold basic First and
Fourth Amendment principles simply because Block
was also a licensed WSBA member. The appeals
panel issued a two page order which cited to only one
case as the basis for their dismissal. Under
well-established principles, using previous cases as a
guide, Block should have easily avoided a motion on
the pleadings. After all, in Block’s complaint she
clearly stated dates, and how she received public
disclosure responses supportive of each of her
allegations. For reasons we cannot fathom, because
the panel never explained their reasoning, why the
panel ignored decades of well-established precedent,
and instead opted out for a decision that if allowed to
stand, will essentially do away with our First and
Fourth Amendment rights to be free from abusive
unconstitutional subpoenas simply because she is a
licensed bar member, who happens to be reporting
news. If Block v WSBA et al is allowed to stand,
perhaps CNN’s Anderson Cooper or Washington
Post’s blogger and UCLA Professor Eugene Volokh
will be disbarred next.
Adding insult to injury, the district court and
the panel ignored the retaliation Block experienced
for disassociating from the Washington State Bar. As
we will demonstrate in this petition, membership in

the bar had nothing to do with the bar’s investigation
of possible discipline. It only served to punish Block
for asserting her right to associate (or dissociate)
under the fourth amendment
For these reasons, and because of their
importance, this court should grant the injunctive
relief and declaratory relief Block sought from US
Federal District Court, regarding the defendant
WSBA’s disbarment proceedings.V. FACTS RELEVANT TO THE PETITION
(A) PROCEDURAL FACTS:
1. On December 28, 2015, Anne Block filed suit
in the United States District Court, Western District
against the Washington State Bar Association,
Snohomish County, the City of Gold Bar, King
County, Port of Seattle, and several individual
defendants. (ERV 94-158).
2. On February 14, 2016, Anne Block filed a
motion to disqualify Judge Martinez and all other
western district judges. (ER V:88'93, 170) 4. Between
February 24, 2016, and March 23rd, 2016 both Judge
Martinez and Judge Leighton refused to disqualify
themselves. (ERF 145-149, ERVU72). (ER P140-144,
ERV173) (ERV173, ER 111:211-223) (ERV: 175; ER
I: 137-139).
3. Between February 23, 2016, and April 19,
the defendants filed motions to dismiss. (ER V: 172,

ER IV: 56-68) (ER V:172, ERPV22-48) (ER VH72, ER
IV:i-12l) (ER VH73, ER 111:224-211) (ERV:173;
4:196-199) (ER V:174; ER III: 168-183) (ER V:174; ER
111:66-92) (ERV:176; ER 111:56-65) (ER V:181, ER II:
71-82) (ER V:i8i; ER 11:61-70) (ER V:182; ER II:
49-57).
4. Between March 31, 2016 and August 17,
2016, Judge Martinez granted motions to dismiss to
the defendants and awarded attorney fees to several
defendants. (ER 1:105-136, ER V:177) (ER I: 74-100;
ERV:179) (ERI: 57-691 ERV:181-182) (ERR 51-56;
ER V: 182) (ER R46-48;ER V:183) (ER 1:33-45; ER
V:i84) (ER R27-32; ER V: 184-185) (ER V:185; ER
IR11-17) (ER V:i85) (ERR15-16; ERV:185) (ER
RIO-14; ERV:186) (ERR7-9; ERV:186) (ERI-6, ER V:
186-187) (ER V:i87).
5. On March 31, 2016, Block filed for a TRO
and Preliminary Injunction (ER V:177)(ER IIR27-55).
6. Between April 1, 2016 and May 24th 2016,
Judge Martinez denied the Motion for TRO, motion
for injunction. (ER I, 101-104)(ER V:177) (ER R17-26,
ERV:185).
7. Between June 2, 2016, and September 15,
Block files Notice(s) of Appeal to Ninth Circuit. (ER
V:i85, ER IR18-36) (ER V:186; ER IR4) (ER V:186;
ER IR2-3) (ER V:187; ER II: l).

(B) SUBSTANTIVE FACTS:
1. Re judicial disqualification>' the appellant
requests this court to take judicial notice that the
chief justice of the Ninth Circuit COA has already
ruled in Marshall v. WSBA, WWDC Case # 11-5319,
Pope v. WSBA, WWDC Case # 11-05970, and Scannell
v. Washington State Bar Association, et al, WWDC
Case #2:l2-cv00683, that their membership in the
WSBA requires disqualification in a suit against the
WSBA.
2. This and other suits originated from
appellant’s public disclosure requests to respondents
in December, 2008 as co-owner and investigative
reporter for the Gold Bar Reporter (GBR) an online
news service. (ER V:25-27, §3.5)
3. Anne Block’s articles accused the
respondents of various crimes and other wrongdoing,
including theft, misuse of taxpayer funds such as
financing affairs and trips to brothels, bribery,
racketeering, rape, extortion and assaults. She claims
to carefully research each of the articles through
public disclosure, hiring a private investigator firm
and utilizing confidential sources. She provides her
targets an opportunity to respond, and most refuse to
deny the allegations. She has never been sued for
defamation. (ER V.24-30, §3.2, §3.9)(ER 11:157-192,
passimXER W25-27, §3.5; ER 111:166-167).
4. The various defendants found willing
accomplices, the WSBA defendants, who had already

formed their own criminal enterprise that had similar
goals. This included other attorneys who opposed
corruption by filing lawsuits.
5. For example, in a case involving the lawyer
discipline of Bradley Marshall before the Washington
State Supreme Court, in August of 2009, Scott Busby
wrote on behalf of the WSBA before the Washington
State Supreme Court.
The Association further requests that
the Court address the issues presented
here when [the court] issues it published
opinion in this case to give guidance to
other respondent lawyers who believe
they can thwart a disciplinary
proceeding merely by filing a lawsuit
against the Association, the Supreme
Court, or its members.
Mr. Marshall was not charged with filing a
frivolous lawsuit as part of the disbarment
proceedings and his lawsuit was not the subject of
discipline. (ER IV-215, §238).
6. In a series of exposes, Block published
articles documenting how respondent Aaron Reardon
(Reardon) used taxpayer funds to carry on an affair
with two employees in Europe. (ER V'37-38, §3.30)
7. Another target of Block’s exposes was
respondent John Pennington (Pennington) who was
head of emergency services. She published over fifty
articles about respondent Pennington's incompetence,
lack of credentials to head the Department of

Emergency Management (DEM) for Snohomish
County, and criminal history of assaulting women.
(ER V:31, §313) (ER 111:158-189)
8. Appellant Block named Pennington as the
one primarily responsible for the Oso mudslide
disaster which killed 43 people in 2014 primarily
because he was the one who authorized the permits
that allowed the houses to be built on the mudslide
site, knowing the site was unsafe. (ER V-43, §3.41, 59,
ER 111:71-72)
9. In January 2012, Appellant learned from
public records that were withheld over three years,
that Margaret Kang, Michael Kenyon, Ann Marie
Soto, Hill-Pennington, Pennington, and Joe Beavers
met and conspired to retaliate against Block by filing
a second WSBA complaint In February 2012, Gold
Bar's law firm, Kenyon Disend, billed the taxpayers of
Gold Bar for the WSBA complaint against appellant.
(ERV:36, §3.26)
10. In late March 2012, under the guise of a CR
26 conference, respondent Reay threatened appellant
and her paralegal that if appellant continued to insist
on deposing Pennington he would have appellant and
her paralegal arrested. (ER V:36, §3.27)
11. On June 1, 2013 John Lovick was appointed
Snohomish County Executive. Subsequently,
Pennington was never disciplined for his misconduct
as alleged in the complaint, even Lovick was aware of
evidence to support discipline. Instead he was placed
on paid “administrative leave” from April 2014 until

terminated by the new Snohomish County Executive
in 2016. Since Block I was decided, appellant has
learned through public records that defendant,
Pennington, was not trained, supervised, disciplined,
or adequately screened for employment with
Snohomish County. (ER V:39, §3.32)
12. On November 15, 2013, pertaining to a bar
complaint filed by Pennington, respondent Linda Eide
(Eide) issued a subpoena to Block for three years of
documents relating to articles published in the Gold
Bar. The subpoena had nothing to do with Block’s
clients or practice of law, but to reveal confidential
sources behind the articles she wrote on Pennington.
(ERV:31, §3.12).
13. On December 3, 2013, Block sent Eide a
letter objecting to the deposition on First Amendment
grounds, Media Shield laws (RCW 5.68.010), and
privacy rights under Washington’s state constitution.
She also raised the defense that the Washington State
Bar Association had no jurisdiction to regulate the
press. (ER V-41, §3.36, ER III-43).
14. On December 6, 2013, without attempting
to have any of the objections adjudicated by the Chief
Hearing Officer, Eide attempted to hold the
deposition without Block (ER V-41, §3.365 ER
111:69-70),
15. On February 19, 2014 a Court appointed
investigator and special master in Stevens County
concluded that Lynn O'Dell (O’Dell) had committed
ethical violations and refused to account for funds

that she had controlled in her role as a limited
guardian of a vulnerable adult, Paula Fowler. Details
of the alleged wrongdoing by O’Dell are outlined in
ERV: 42, §3.39.
16. Block alleged that the hearing examiner
was not chosen at random, but was chosen by the
Chief Hearing Examiner Nappi, who was paid
$30,000 a year to pre-select the hearing officers to
gain conviction. In her complaint Block alleges
several conflicts of interest that O’Dell had with
Nappi at the time she was chosen to be hearing
examiner. Block claims that the exchange of the
conviction of Anne Block in exchange for her
immunity from her illicit actions as a guardian
constitutes bribery. (ER V- 42-43, §3.38, §3.40).
17. On March 22, 2014, the OSO mudslide
occurred killing 43 people. At the time, Pennington
(DEM) was on the east coast paid under contract for
FEMA Emergency Institute yet still collecting wages
from Snohomish County. He did not return to
Snohomish County until March 24, 2014, according to
public records obtained by Block. (ER V-43, §341).
18. In late March 2014, O’Dell and Plivilech set
up USPS Box # 70 in Duvall Washington located
within three blocks from the Penningtons’ home in
Duvall. O’Dell and Plivilech live in Spokane, four
hours away, and had no previously known ties to City
of Duvall. The Duvall postmaster (retired) having
seen Hill-Pennington accessing a post office box in
Duvall. Appellant’s investigation, revealed neither

Hill-Pennington, nor Pennington had a USPS box in
Duvall. (ER V:43,44, §3.42).
19. At the end of April 2014, Plaintiff notified
the WSBA and the Washington State Supreme Court
that she would not be renewing her license and would
be disassociating with the WSBA.(ER V, 44, §3.43)
20. In May 2014, appellant notified O'Dell and
Eide that she would be out of state on business for two
months. O'Dell purposely set discovery for a three
week period appellant would be out of state. O'Dell
and Eide refused to answer a single discovery request
issued by appellant. (ER V, 44, §3.44).
21 In early May, Edie tried to extort Plaintiffs
democratic rights, alleging that Plaintiff does not
have the legal right to disassociate with the WSBA
under the First Amendment. (ER V, 44, §3.45)
.22. Early June 2014 appellant issued a
subpoena for WSBA witness, John Pennington.
Respondent Reay, apparently on behalf of
Pennington, then contacted Eide for the purpose of
quashing a subpoena. Appellant requested public
records from Snohomish County, who responded that
no responsive records exist. (ER V-45, 46, §3.47).
23. In June 2014, Eide, shortly after being
contacted by Reay made ex-parte contact with O’Dell
who then issued a quash order. (ER W46, §3.48).
24. When appellant learned a quash order was
issued for the subpoena, appellant requested Eide’s
telephone records. Eide unlawfully redacted the

r. %

phone records for the ex-parte contacts with O’Dell
claiming attorney-client privilege. (ER V- 46, §3.49).
25. June 30, 2014, WSBA records confirm
O’Dell and Eide held another ex-parte telephone
communication. O’Dell then sets a hearing date for
three weeks later on July 21, 2014. (ER V'46, §3.50).
ELC 10.12(b) requires that the hearing date only can
be set at a hearing where the parties are present.
26. In July 2014, Reay authored knowingly
false, statements, which included among other
allegations- (l) That appellant is “delusional”. (2)
That appellant “accosted” Reay. (ER V, 46 §3.51).
27. First week of July 2014. The Sky Valley
Chronicle posted a story about a hearing for Ms.
Block’s “misconduct as an attorney” which is how
appellant learned of the scheduled hearing. The story
was false as plaintiff was not accused of misconduct
as an attorney, only for what she wrote as a journalist
for the Gold Bar Reporter. Since February 13, 2012,
the Sky Valley Chronicle has published more than
100 defamatory articles about appellant which
remain published to this day. (ER V: 46-47, §3.52).
28. On July 21, 2014 WSBA denied the
appellant’s a reasonable accommodation request, and
prevented appellant from participating in a
disciplinary hearing by deliberately disconnecting the
phone through which she was appearing. (ER V:
47-48, §3.53).
29. In August 2014, Gibbs, a Snohomish
County court commissioner member contacted WSBA

ODC member, Jean McElroy, via email, complaining
about appellant's First Amendment protected activity
in order to influence the proceedings. To wit, news
reports on the Gold Bar Reporter about Gibbs’
corruption as it relates to Snohomish County. Gibbs
had significant motive to influence the proceedings
because the appellant has published numerous
articles of Gibb’s corrupt activities including illegal
lobbying of the legislature, lying to the court about
being sanctioned for it, stealing land in another civil
case while he was a judge, mishandling over $200,000
in client funds for his own use and illegally hiding
money in offshore accounts. (ER V' 48, §3.54).
30. When appellant filed a bar complaint
against Gibbs, the WSBA ignored it. (ER V' 50, 51;
§3.54).
31. On September 6, 2014, Hearing Officer
O’Dell, issued her decision recommending
disbarment. O’Dell made several findings of
misconduct, for which she was never charged,
including harming the Penningtons, and misconduct
in the way she conducted her case, which included
misconduct for diassociating from the bar(ER V: 50}
32. Even though O’Dell could not account for
several million dollars in a trust account set up for a
client (Paula Fowler), for whom she was guardian, the
bar refused to investigate these bar complaints. Later
on, long before the Disciplinary Board had come to a
conclusion on the case, O’Dell predicted that Anne
Block would be disbarred. The WSBA, through

respondent McGillen, refused to investigate the bar
complaints filed in connection with this multimillion
dollar disparity. (ER V'42, §339; ER V:55_56, §3.56)
33. In late 2014, appellant filed WSBA
complaints against Lin O'Dell, Linda Eide, and Sean
Reay for ex-parte communication in violation of
Washington Rules of Professional Conduct. WSBA
assigned Ronald Schaps to investigate the bar
complaints, who admits he never investigated. (ER
V‘58-59, §3.64).
34. From the time between the time hearing by
O’Dell, and the time the issue was eventually heard
by the Disciplinary Board in October 2015, the
appellant alleges a number of harassing actions taken
by some of the respondents.
These include'
35. In March 2015, the Penningtons filed
criminal complaints with the City of Duvall because
appellant attempted to depose Hill-Pennington in a
public records case. Batiot helps them file a no contact
order for protected speech. (ER V-60, §367).
Pennington files identical evidence to try to obtain no
contact order before Judge Meyers on March 19, 2015.
(ER V- 60, 3.69) The Pennington’s knowingly used
altered documents and false accusations in both.
Pennington’s admit in court they shut down
appellant’s twitter account for what appellant claims
was protected first amendment activity. These
attempts by Hill Pennington were rejected by
prosecutors and by Judge Meyers. (ER V- 62§37l)

36. On March 19, 2015, March 25, 2015, and
April 1, 2015 Hill-Pennington knowingly filed false
statements with the King County District Court, City
of Duvall, and Snohomish County, respectively. The
falsities that Hill-Pennington stated and published,
are outlined in ER V:63-64, §373, §374
37. Threat on appellant’s Life. April 2015, after
the Penningtons failed three times to obtain a
restraining order on appellant’s First Amendment
protected speech or have criminal charges filed
against appellant for the same, Block learned that
John Pennington had “taken out a hit” on appellant.
The confidential source was to be revealed in
depositions or trial. (ER V:64-65, §375)
38. On April 12, 2015, Respondent Duvall
Police Officer Lori Batiot, made thinly veiled threats
that if appellant did not call her back and explain her
news articles she would have her arrested. (ER V'65,
§376)
39. On May 4, 2015 Lori Batiot did knowingly
publish false documents and false accusations for the
purpose of wrongfully instituting legal proceedings
and abuse of process against the appellant by seeking
to have her committed to a mental institution. (ER V65-66, §3.77, §3.78, §3.80)
40. Defendants Duvall, Batiot, Penningtons
and Michael Kenyon continued to withhold public
records involving appellant, even after Appellant filed
a suit for the records (ER V:67, §3.79).

41. In May, 2015, John Pennington’s and
Officer Batiot contacted Cary Coblantz with at least
two phone calls. As a result, Coblantz falsely asserted
the appellant was wanted for "possible felony warrant
with extradition back to the U.S." Port of Seattle
Officers Matuska, Tanga, and Gibleo used this to
elicit the assistance of US Customs Officer Curtis
Chen to place a tracker on appellant's passport which
had the effect of putting her on a terrorist watch list.
On May 24, 2015, after arriving at London Heathrow
Airport, appellant, while fully clothed, was searched
in a very personal and penetrating manor. She was
also illegally detained at Seattle Tacoma
International Airport, by two Port Officers and one
US Customs Officer, Curtis Chen. The judge
eventually threw out this wrongfully instituted legal
proceeding. (ER V:67-69, §3.81, §3.82, §383).
42. Public records from the City of Shoreline
confirmed that Coblantz not only conspired with
Pennington and Batiot to have appellant charged
with felony criminal stalking and harassment
charges, but he also conspired with Sandra, Sullivan
(Meadowcroft) who was not acting as a prosecutor at
the time. The conspiracy ultimately failed, the details
of this effort are outlined in (ER V-68, §3.83).
43. On June 19, 2015, Batiot, Pennington and
Hill Pennington, also sought to have appellant
committed for a PSY evaluation. This effort failed as
well. (ER V-69, 70, §3.84, §3.85).

44. From public records retrieved in August
2015, Reay assisted Hill- Pennington by giving her
personal giving legal advice on how to get a
restraining order. Furthermore, Hill-Pennington
notified the court she considered Reay her personal
lawyer (ER V-70§3.86).
45. In September 2015, a former Snohomish
County Department of Information Services employee
Pam Miller gave appellant public records previously
requested from Snohomish County but withheld,
documenting that defendants DiVittorio and Lewis
tampered with public records appellant requested.
Miller had earlier been fired after she complained
about Snohomish County staff treating Block
differently than other requesters, by not disclosing
many documents and altering others. DiVittorio and
Lewis’ actions violated the public records act and the
public trust causing injury to appellant and the
public. (ERV-71, §3.88).
46. On October 5, 2015, John Pennington was
actively stalking appellant at her place of business in
Monroe, Washington, while being paid by Snohomish
County. (ER V-72, §3.90).
47. After Block filed objections and asked for
oral argument under ELC 11.2, and asked for
accommodations because she was scheduled for ear
surgery at the time the hearing was scheduled. Both
Shankland and the Board denied her request without
cause. (ER V'72-73: §391).

48. On October 30, 2014, the Disciplinary
Board held an ex parte hearing which was videotaped.
The video tape shows numerous ex parte
conversations between John Pennington, Julie
Shankland, and Disciplinary Board member Kevin
Bank. Respondents Bank and Sato physically
intimidated and threatened a news reporter who had
filmed the illegal ex parte contacts during the
hearing. (ER V'-73- 74, §392-394).
49. On November 13, 2015, the Disciplinary
Board recommended disbarment again refusing to
address the same issues that O’Dell had failed to
address. (ERV:74, §395).
50. On November 17, 2015, Pennington
reported to Snohomish County Emergency Command
Center (EOC) signed onto the Gold Bar Reporter, shut
down appellant's Twitter account. (ER V-74, §396).
VI. ARGUMENT
A. All three judges associated in this case have
pre-existing conflicts of interest which require their
disqualification.
In Block’s motion for disqualification against
Judge Martinez and Leighton, (ER V-91) she cited to
Marshall v. WSBA supra, Pope v. WSBA, supra, and
Scannell v. Washington State Bar Association, et al
supra, where the chief justice had disqualified the

Western District Judges by appointing out of
Washington State federal judges, based upon their
membership in the Washington State Bar
Association. She argues that Jones should have been
disqualified in the previous case for the same reasons.
These rulings are consistent with the case of
Biss v. Angel, 934 P.2d 669, 131 Wash.2d 612 (Wash.
04/10/1997), which indicates that individual
members of an association like the WSBA are
individually liable for suits against the organization
as a whole.1
1 That case in turn, cited Nolan v. McNamee, 82
Wash. 585, 144 P. 904 (1914), which pointed out that
in Washington, at common law, members of
unincorporated associations have been held jointly
and severally liable for all debts of the association.
While Biss allowed for a narrow exception for
“nonbusiness, non-profit” associations, where only
members who participated in the decision could be
held liable, this exception has never been applied to a
business related non-profit such as the bar
association. There also has been no exception for
judges who participate in making the decision by
making judicial decisions.
Judge Martinez in (ER PI50) cites to Denardo v.
Municipality ofAnchorage, 974 F.2d 1200, 1201 (9th
Cir. 1992) (citing Pilla v. American Bar Assoc., 542
F.2d 56, 57-58 (8th Cir. 1976), Hu v. American Bar
Assoc., 334 F.Appx 17, 19 (7th Cir. 2009)(citing Hirsh
v. Justices of the Sup. Ct. of Cal., 67 F.3d 708, 715
(9th Cir. 1995));/z? re City ofHouston, 745 F.2d 925,
930 n.8 (5th Cir. 1984); Plechner v. Widener College,

B. The plaintiff has properly pled first amendment
retaliation claims.
For a private citizen, the tests for establishing
a prima facie case for first amendment retaliation are
covered under the following three-part test, (l) that
his or her speech is protected by the First

Inc., 569 F.2d 1250, 1262 n.7 (3rd Cir. 1977); also
Parrish v. Bd. Of Comm’rs ofAlabama State Bar, 527
F.2d 98, 104 (5th Cir. 1975). In none of these cases
was the issue of a conflict of interest based upon
common law liability of members of a bar association
raised.
In fact, one case cited by Martinez, Plechner v.
Widener College, Inc., 569 F.2d 1250, 1262 n. 7 (3d
Cir. 1977), supports Block. That case ruled that the
amenability of an unincorporated association to suit
is governed by the law of the state in which the court
sits. Underwood v. Maloney, 256 F.2d 334 (3d Cir.
1957), cert, denied, 358 U.S. 864, 3 L. Ed. 2d 97, 79 S.
Ct. 93 (1958); See Fed. R. Civ. P. 17(b). In Plechner,
the forum state was Pennsylvania, which, allows suit
to be brought against an unincorporated association
either in its own name or that of an officer as trustee
ad litem. Pa. R. Civ. P. 2153. A judgment entered
against an association alone in Pennsylvania, will
support execution upon its property but not that of an
individual member. Pa. R. Civ. P. 2158. 6
GOODRICHAMRAM 2d, STANDARD
PENNSYLVANIA PRACTICE § 2158.1 (1977). That
is not the case in Washington, where the common law
prevails, which make all Washington federal judges

Amendment; (2) that the defendants took an adverse
action against the plaintiff; and (3) that the adverse
action was prompted or caused by the plaintiffs
exercise of his or her First Amendment rights.
Arrington v. Dickerson, 915 F. Supp. 1516.
This is essentially the same three-part test
that was articulated in Arizona Students’ Ass’n v.
Arizona Bd. ofRegents, 824 F.3d 858, 867 (9th Cir.
2016) (discussing requirements for retaliation claim),
which the panel cited as the basis for its dismissal.
Significantly, this was the only test mentioned in
Arizona Students id, as that case was primarily a case
involving damage immunity for those who possessed
11th amendment immunity. Since this was the only
basis the panel gave for its dismissal of Block’s First
Amendment claims.
The panel does not state which of the three
prongs Block failed to meet. However, Arizona
Students gives the requirements that must be met for
each of the three prongs.
According to Arizona Students, to bring a First
Amendment retaliation claim,
[T]he plaintiff must allege that (l)
it engaged in constitutionally protected
activity; (2) the defendant's actions
would "chill a person of ordinary
firmness" from continuing to engage in
the protected activity; and (3) the

liable should Block wins.

protected activity was a substantial
motivating factor in the defendant's
conduct-i.e., that there was a nexus
between the defendant's actions and an
intent to chill speech. O'Brien, 2016 WL
1382240, at *11 (citing Pinard v.
Clatskanie Sch. Dist. 6J, 467 F.3d 755,
770 (9th Cir. 2006); Mendocino Envt'l
Ctr. v. Mendocino County, 192 F.3d
1283, 1300 (9th Cir. 1999)); see also
Blair v. Bethel Sch. Dist., 608 F.3d 540,
543 (9th Cir. 2010). Further, to prevail
on such a claim, a plaintiff need only
show that the defendant "intended to
interfere" with the plaintiffs First
Amendment rights and that it suffered
some injury as a result; the plaintiff is
not required to demonstrate that its
speech was actually suppressed or
inhibited. Mendocino Envt'l Ctr., 192
F.3d at 1300.
1. According to Arizona Students supra"The First Amendment affords
the broadest protection to . . . political
expression in order 'to assure unfettered
interchange of ideas for the bringing
about of political and social changes
desired by the people.'" Buckley v. Valeo,
424 U.S. 1, 14 (1976) (per curiam)

(quoting Roth v. United States, 354 U.S.
476, 484 (1957)). A person's First
Amendment free speech right is at its
highest when that person engages in
"core political speech, " which includes
issue-based advocacy related to ballot
initiatives. McIntyre v. Ohio Elections
Comm 'n, 514 U.S. 334, 347, 351 (1995).
Block obtained public records (email
communication) from King and Snohomish Counties
prior to filing suit. In her suit, she stated under oath
that while traveling from London Heathrow Airport
to Seattle Tacoma International Airport in May 2015,
Defendant, Cary Coblantz, a King County Officer,
contacted the Child Sex Trafficking Division for the
Department of Justice International Police (Interpol)
placed a tracker on her US passport claiming she was
wanted back in the US for a “possible felony warrant
with extradition back to the US” causing her
detention and rape from London to Seattle. She was
seized and not free to leave. Before filing suit, she
learned from public disclosures releases that
Defendants Port of Seattle, Matusa, Gibleo, Tanga
and City of Duvall and its police officer Lori Batiot
(who was fired a result Block’s investigation of her
extensive criminal history and placed on the Brady
List) issued the false claims of a felony warrant to
DOJ Interpol after Defendant Coblantz stated in an
email to Defendant Port of Seattle, Sean Gibleo,
Block’s news reports were was “ anti-government”

therefore justifying the false statements to be placed
on her passport. Block stated that these false
statements resulted in her being unlawfully detained
and rape from lawfully traveling from London to
Seattle in May of 2015.
Block’s articles accused the respondents of
various crimes and other wrongdoing, including theft,
misuse of taxpayer funds such as financing affairs
and trips to brothels, bribery, racketeering, rape,
extortion and assaults. She carefully researches each
of articles after obtaining responses through public
disclosures, has a private investigator firm for
verification and follow purposes, and utilizes
confidential employee sources from various agencies
including Defendants in this case. She also provides
her targets an opportunity to respond, prior to
publication, and most refuse to deny the allegations.
Block has never been sued for defamation, but
Defendants Pennington and Hill Pennington have
made several attempts to obtain restraining orders
which were denied by a Washington State Court
Judge citing Block is a member of the press and such
orders are unconstitutional. (ER V-24-30, §3.2, §3.9)
(ER IP 157-192, passim).
Since Block’s targets are exclusively public
officials, public contractors, and public employees, it
is undisputed that Block engaged in First
Amendment protected activity, and was punished and
retaliated against as evidenced by public disclosures

responses from Defendants and was articulated in
detail in her complaint.
2. Block additionally alleged that the
defendant’s retaliatory actions chilled her exercise of
its free speech rights by actions that deter a person of
ordinary firmness from engaging in protected First
Amendment. Specifically, the Block alleged that the
defendants engaged in conduct that would chill a
person of ordinary firmness from engaging in
protected First Amendment activity when they
attempted, and subsequently did, disbar, as
evidenced in Block v WSBA 2 et al, defamed her on a
government operated website titled “The Sky Valley
Chronicle”, placed her on a terrorist watch list, and
illegally tracked and seized her without a warrant
while traveling internationally, which essentially
resulted in Block being raped at a London Heathrow
Airport and unlawfully detained at Seattle Tacoma
International Airport. The reason Defendant
Coblatnz citied in his email obtained through King
County public disclosures was that he believed
Block’s news reports were “anti-government.” If this
isn’t “retaliation” based on protected First
Amendment activity, we’re not sure what is.
(ER V-67-69, §3.81, §3.82, §383).
Public records from the City of Shoreline
confirmed that Coblantz not only conspired with
Pennington and Batiot to have appellant charged
with felony criminal stalking and harassment
charges, only after viewing Block’s online her news

reports, but he also conspired with Sandra, Sullivan
(Meadowcroft). Meadowcraft is a City of Duvall
special prosecutor and has no jurisdiction in City of
Shoreline. The conspiracy ultimately failed, the
details of this effort are outlined in (ER V'68, §3.83).
On June 19, 2015, Batiot, Pennington and Hill
Pennington, also sought to have appellant committed
for a PSY evaluation. This effort failed as well. (ER
V:69, 70, §3.84, §3.85).
In September 2015, a former Snohomish
County Department of Information Services employee
Pam Miller gave appellant public records previously
requested from Snohomish County but withheld and
never produced, documenting that defendants
DiVittorio and Lewis tampered with public records
Petitioner Block requested but never received. Miller
had earlier been fired after she complained about
Snohomish County staff treating Block differently
than other requesters, by not disclosing many
documents and altering others. DiVittorio and Lewis’
actions violated the public records act and the public
trust causing injury to appellant and the public. (ER
V:71, §3.88).
On October 5, 2015, John Pennington was
actively stalking appellant at her place of business in
Monroe, Washington, while being paid by Snohomish
County. (ER VY2, §3.90).
On October 30, 2014, the Disciplinary Board
held an ex parte hearing which was videotaped and
posted to U Tube. In Block’s response to the WSBA

Disbarment proceeding, Block correctly cited First
Amendment protected activity was not subject to the
WSBA’s censorship when such activity does not
involve a client. The WSBA ignored Block’s pleadings
and objections which was the central point other
subsequent action seeking declaratory and injunctive
relief.
Block correctly alleged that WSBA and
Snohomish County interfered with her right to
conduct discovery in the WSBA proceedings, by
claiming that the WSBA dropped Snohomish County
public official John Pennington’s complaint. However,
the video tape shows numerous ex parte
conversations between John Pennington, Julie
Shankland, and Disciplinary Board member Kevin
Bank violating the Open Public Meetings Act. When
Respondents Bank and Sato noticed that they were
being videotaped, both physically intimidated and
threatened a news reporter who had filmed the illegal
ex parte contacts during the hearing. (ER V:73-74,
§392-394).
On November 13, 2015, the Disciplinary Board
recommended disbarment again refusing to address
the same issues that O’Dell had failed to address. (ER
V-74, §395).
On November 17, 2015, Pennington reported
to Snohomish County Emergency Command Center
(EOC) signed onto the Gold Bar Reporter, shut down
appellant's Twitter account.. (ER V'74, §396).
According to Arizona Students supra

Both the Supreme Court and we
have recognized a wide variety of
conduct that impermissibly interferes
with speech. For example, the
government may chill speech by
threatening or causing pecuniary harm,
Bd. of Cty. Comm'rs v. Umbehr, 518 U.S.
668, 674 (1996); withholding a license,
right, or benefit, Baird v. State Bar of
Ariz., 401 U.S. 1, 7 (1971); prohibiting
the solicitation of charitable donations,
Vill. ofSchaumburg v. Citizens for a
Better Env't, 444 U.S. 620, 633 (1980);
detaining or intercepting mail, Blount v.
Rizzi, 400 U.S. 410, 417-18 (1971); or
conducting covert surveillance of church
services, The Presbyterian Church v.
United States, 870 F.2d 518, 522-23 (9th
Cir. 1989). Importantly, the test for
determining whether the alleged
retaliatory conduct chills free speech is
objective; it asks whether the retaliatory
acts "'would lead ordinary student[s] . . .
in the plaintiffs' position' to refrain from
protected speech." OBrien, 2016 WL
1382240, at *11 (quoting Pinard, 467
F.3d at 770).
Clearly, the above alleged retaliatory
misconduct by the defendants would lead an ordinary

person in the plaintiff s position to refrain from
protected speech.
3. Finally, according to Arizona Students supra',
A plaintiff may establish motive using
direct or circumstantial evidence. Ulrich
v. City & County of San Francisco, 308
F.3d 968, 979 (9th Cir. 2002) (citing
Allen v. Iranon, 283 F.3d 1070, 1074 (9th
Cir. 2002)). In cases involving First
Amendment retaliation in the
employment context, we have held that a
plaintiff may rely on evidence of
temporal proximity between the
protected activity and alleged retaliatory
conduct to demonstrate that the
defendant's purported reasons for its
conduct are pretextual or false. Id. at
980. At the pleading stage, a plaintiff
adequately asserts First Amendment
retaliation if the complaint alleges
plausible circumstances connecting the
defendant's retaliatory intent to the
suppressive conduct. O'Brien, 2016 WL
1382240, at *11, *13.
Block offers several plausible factual
allegations to support her contention that the
defendants tried to disbar her, defame her, and put
her on a terrorist watch list along with the other
alleged misconduct to retaliate against Block for her

core protected First Amendment activities. As direct
evidence of the defendants’ retaliatory intent, Block
alleges that the defendants publicly acknowledged
that the basis for them taking action was the articles
she was publishing in the Gold Bar Reporter. Also,
one defendant labeled her as “anti-government”
before taking action against her (ER V:69). As
circumstantial evidence of the WSBA's retaliatory
intent, Block notes that the disciplinary board
criticized Block for her articles on Pennington, even
though she was never charged with that, in violation
of In Re Rufallo, 390 US 544. She also argues that the
defendants allegedly retaliatory conduct was
temporally proximate to Block's exercise of her
free-speech rights. Taken together, those allegations
sufficiently identify the defendant's retaliatory intent
and the nexus between the Board's intent and their
subsequent alleged retaliatory actions.
3. The Bar’s actions of retaliating for asserting
her right to disassociate from the Bar violated her
constitutional right to disassociate from
organizations she disagrees with.
Compulsory subsidies such as mandatory bar
association dues “cannot be sustained unless two
criteria are met.” Knox v. Service Emps. Inti Union,
Local 1000 (“SEIU’% 132 S. Ct. 2277 (2012). First, all
coerced association must be justified by a “compelling
state interest that cannot be achieved through means
significantly less restrictive of associational
freedoms.” Id. Second, even in the “rare case” where

coerced association is found to be justified,
compulsory fees “can be levied only insofar as they are
a ‘necessary incident’ of the ‘larger regulatory purpose
which justified the required association.’ ” Id.
Starting with Lathrop v. Donohue, 367 U.S.
820, 843 (1961) and continuing with Keller v. State
Bar of California 496 U.S. 1, 4 (1990), mandatory bar
associations have never been measured under the
focused analysis required by Knox. Instead, it has
approved mandatory bar associations on the basis of
what a state “might reasonably believe.” Lathrop.
The logic of these decisions is that mandatory
bars are needed so that attorneys can be compelled to
fund their own disciplinary systems. Harris, 134 S.
Ct. at 2643-44; Keller, 496 U.S. at 14; Lathrop, 367
U.S. at 843 However, Compelling attorneys to pay for
the cost of regulating the practice of law can be
achieved by means that do not impinge on the
constitutional right to disassociate, which is present
when there is mandatory bar association
membership- 19 states already do it without
compelling membership at all.2
In his Lathrop dissent, Justice Douglas, came
to the conclusion that the First Amendment did not
permit compulsory membership in an integrated bar.
2 See In re Petition, 841 N.W.2d at 170-71; Ralph H.
Brock, “An Aliquot Portion of Their Dues'” A Survey
of Unified Bar Compliance with Hudson and Keller, 1
TEX. TECH J. TEX. ADMIN. L. 23, 24 n.l (2000)

See 367 U.S., at 878-880, 81 S. Ct. 1826. The analogy
drawn in Janson, he wrote, fails.
"Once we approve this measure," he warned,
"we sanction a device where men and women in
almost any profession or calling can be at least
partially regimented behind causes which they
oppose." 367 U.S., at 884, 81 S. Ct. 1826. He
continued:
"I look on the Hanson case as a narrow
exception to be closely confined. Unless we so treat it,
we practically give carte blanche to any legislature to
put at least professional people into goose-stepping
brigades. Those brigades are not compatible with the
First Amendment." Id., at 884-885, 81 S: Ct. 1826
(footnote omitted).
CONCLUSION
For all the foregoing reasons, petitioner
respectfully requests the US Supreme Court reverse
the 9th Circuit jD^ior decision.
Dated this ^9^ day of August 2019.

Anne Block, Pro Se
115 West Main St #204
Monroe, WA 98272
(206] 326-9933

